- e> -i

-5194

No.

Supreme Court, u S
PILED

JUL 0 S 2021
LPPPICEOFTHFP.

;

IN THE
SUPREME COURT OF THE UNITED STATES
T

l3&ri (

/

&

/*•V.-

Oi

£&‘f /)

—PETITIONER

(Your Name)
r

u,r, A- ■gfSfcfeqt ^
cl. 4‘cl-

— RESPONDENTS)"1*'

V/ <*}

►

i

ON PETITION FOR A WRiT OF CERTIORARI TO

'i!

(
t

\
\

\

(NAME OF COURT THAT LAST RULED. ON MERITS O^YOUR CASlT
i

PETITION FOR WRIT OF CERTIORARI

i

<

Ci-/1 i 6

V- . -

(YouKl ame)

/

Hrf? a.*„J^4r,L A \j£-.
(Address)

• .-•

. •*?

7

Rh.dj ^1 0 '&S

t

(City, State, Zip Code)
i

(Phone Number)

V; r>4^- v
iL-

V *•

«r

/

QUESTIONS PRESENTED
1.

Judicial officers acting clearly/substantially beyond their judicial capacities
fraudulently legislating/extrapolating law deliberately fraudulently
misinterpreting the clear and explicit language of the governing Collective
Bargaining Agreement (CBA) contract are in clear/substantial violation of
their oaths or affirmations of office including clearly/substantially violating
Articles 1 ( no state shall pass laws impairing the obligations of contracts) and
6 (supremacy clause of the U.S. Constitution and all laws pursuant to) of the
U.S. Constitution as I conveyed many times in all my filings in their courts
acting clearly outside their judicial capacities or in complete absence of
jurisdiction hence has no 11th Amendment Immunity with the State of
Minnesota fraudulently claiming immunity from suit and therefore not
required to fulfill Minnesota State contractual obligations in their courts
utilizing glaringly erroneous reasons/laws/ (case laws) defendants submitted
to this case all of this State fraud/machination/extortion/subterfuge needs to
be corrected by an Ex parte Young, 209U.S. 123 and 42USC1983 action which
are the Supreme Laws of the Land and anything to the contrary
notwithstanding to which all Federal and State Judicial Officers took a
Solemn/unbreakable Oath or affirmation to uphold (according to)/(required
by) Article 6 Supremacy clause of the U.S. Constitution.
Page l of 16

2.

Injunction request that my State Case be returned to one of the Minnesota
State Courts (Supreme. Appellate, or District) be ordered by the U.S.
Supreme Court overturning the Minnesota Courts' et al orders dismissing
(subterfuge of) my case with prejudice required to uphold my guaranteed due
process, legal and contractual property rights as promised according to the
U.S. Constitution and oaths or affirmations of office utilizing Ex parte Young,
209 U.S. 123 and 42USC1983 requesting a de novo review of all my filings
from the Minnesota State District Court to the Minnesota Supreme Court by
the United States Court Supreme Court.

3.

All Minnesota State Courts et al went clearly beyond their rights in
determining my complaint that set forth sufficient claim for relief initially
including deciding the alleged and substantiating facts of my case subterfuge
in determining their motions to dismiss. They were legally required to
determine my alleged facts to be true construing all reasonable inferences in
favor of the nonmoving party (me) in determining defendants' motions to
dismiss which the state courts denied/deprived me violating my substantial
due process and equal protection of the laws property rights including the
7th Amendment U.S. Constitution guaranteeing the right to a fair jury trial (I
requested a jury trial in my initial Minnesota State District Court Case
Compliant.). Also documents central to the process claim and referenced in

Page 2 of 16

the complaint, such as contracts, are deemed to be included within the
pleading to which the Minnesota State Courts et al deliberately excluded/
(deprived me of) (I read the entire Governing Collective Bargaining
Agreement contract as I stated in all mv fillings starting at the Minnesota
State District Court ignored/ [deprived ofl at all court levels.).
4.

The judicial officers in all Minnesota Courts et al of this case are fraudulently
depriving me of my clearly and explicitly stated legal and contractual due
process property rights and equal protection of the laws
arbitrarily/capriciously in violation of both Federal and State Constitutions
and all the laws pursuant to claiming that the U.S. Constitution including
42USC1983 does not apply/ (has no force of law) in any State of the Union
clearly/substantially violating Art.6 Supremacy clause of the U.S.
Constitution as I conveyed in my defense in my filings in the Minnesota
Courts et al.

5.

Carter v. Peace Officers Standards and Training Bd., 558N.W.2d 267, 273
(Minn. App. 1997) does not apply since this Minnesota Case Law precedent
erroneously utilized federal case law that utilized the 11th Amendment of
the U.S. Constitution which does not apply/ (cannot be
extrapolated/legislated by the courts to apply) in a Minnesota State action
brought by a Minnesotan clearly/substantially violating due process and

Page 3 of 16

equal protection of the laws 5th and 14th Amendments of the U.S.
Constitution.

6.

"Rooker-Feldman doctrine" is contrary to Ex parte Young case law to which
the latter guaranteeing the Unalienable Rights of We the People as promised.
Apparently only the U.S. Supreme Court can issue an Ex parte Young
injunction to which I am now requesting from the U.S. Supreme Court.

7.

Ali v. Cangemi, 419 F.3d 722, 723(8th Cir. 2005) does not apply to this case
since Ali was released from imprisonment not requiring an issuing of a Writ of
Habeas Corpus to which the issuing of to be absolutely unnecessary but in
my Minnesota State case to which I am still being deprived of my
clear/substantial rights (which is what happens to a prisoner or during
martial law similarly to which Ali v. Cangemi was also attempting to
address) of my involved Minnesota State Case of this injunction action
request on the State of Minnesota Government/Courts which is exactly what
occurred in Ex parte Young, 209 U.S. 123 requiring an issuing of an injunction
by the U.S. Supreme Court giving prudence to my ongoing substantial
controversies including Article 3 U.S. Constitutional jurisdiction to the federal
courts.

8.

The Minnesota State Courts et al allowed the State of Minnesota
Government to make contracts and then grant/legislate immunity for

Page 4 of 16

breach of contract with my case clearly/substantially violating Article 1 State
Contractual Obligation clause of the U.S. Constitution.
9.

My substantial employment contractual due process property rights were
deprived without due process by all defendants clearly/substantially violating
the 5th and 14th Amendments of the U.S. Constitution also
clearly/substantially violating Article 1 of the U.S. Constitution which states
that States cannot pass any law impairing the obligations of contracts.

10.

Minnesota State judicial and executive(Minnesota Attorney General's
Office) officers are trained professionals at law and do not honor the U.S.
Constitution and all laws pursuant to or even the Minnesota State
Constitution stating/legislating many times in their filings that the U.S.
Constitution and all laws pursuant to do not apply to, and have no force of
law, in Minnesota or any State in the Union clearly/substantially in violation
of Article 6 Supremacy clause of the U.S. Constitution including their
solemn/unbreakable oaths or affirmations to the U.S. Constitution and all
laws pursuant to require to not even be allowed to infringe upon individual
liberties/funalienable rights) even after being informed by me in my filings
many times from my initial Minnesota District Court Complaint on up to the
Minnesota Supreme Court but Minnesota State judicial and executive officers
mysteriously contrarily claim insistently that the 11th Amendment of the

Page 5 of 16

U.S. Constitution does apply in the Minnesota State Courts (even though the
U.S. Constitution does not have any force of law in Minnesota State Courts)
demonstrating these judicial and executive(Minnesota Attorney General's
Office) officers agents of the State of Minnesota required to enforce the will
of the People of Minnesota deliberately capriciously acting
substantially/completely outside their judicial and executive capacities or in
complete absence of jurisdiction and executive office clearly/substantially
violating the 5th and 14th Amendments of the U.S. Constitution for due
process and equal protection of the laws.
11.

Minnesota State judicial and executive officers capriciously and ridiculously
stated many times in their filings that the Minnesota Constitution does not
apply and has no force of law in the Minnesota Courts clearly/substantiaily
violating the 5th and 14th Amendments for due process and equal
protection of the laws.

12.

Federal and State Courts cannot assume legislative powers. Courts of
Minnesota and defendants have clearly/substantially
misapplied/extrapolated/legislated numerous erroneous/non-applicable
laws and case laws both State and Federal. Just because something appears
to be intended to be a widely-accepted-rule does not change the fact that it
is not and is in clear/complete/substantial violation of the clear and explicit

Page 6 of 16

language of the laws and the governing CBA including my Probationary
Appointment Letter contracts in this case clearly/substantially violating
Articles 1 State Contractual Obligation clause and 6 Supremacy clause of the
U.S. Constitution also clearly/substantially violating the 5th and 14th
Amendments for due process and equal protection of the laws as stated
throughout all my filings.
13.

Minnesota Courts claim that 42 USC 1983 is not a law that they have to
enforce and are not obligated and will not honor in their courts
clearly/substantially violating Article 6 Supremacy clause of the U.S.
Constitution and all laws pursuant to including the 5th and 14th Amendments
of the U.S. Constitution for due process and equal protection of the laws.

14.

Allen v. Hennepin County, 680 N.W. 2d 560, at 563 (Minn. Ct. App. 2004) 90
day limitation from the Uniformed Arbitration Act cannot be
extrapolated/deeislated by the courts) to apply to this case by the courts
where arbitration was clearly and explicitly not allowed/implied by the
Governing CBA Contract clearly/substantially violating Article 1 U.S.
Constitution against the States making laws impairing the obligations of
contracts, and clearly/substantially violating the 5th and 14th Amendments
U.S. Constitution for due process and equal protection of the laws. In Allen v.
Hennepin County dissenting Judge Minge stated that the Uniformed

Page 7 of 16

Arbitration Act does not apply in that case further stating that the Minnesota
6 year limitation law clearly applies.
15.

How was I, a non-practicing non-lawver. supposed to know of any
limitations not conveyed to me or stated to me anywhere including in the
Governing CBA contract to which I read the entire document after being
terminated by ambush from the Minnesota Department of Human Services
(MNDHS) required to learn by ambush by the defendants' attorneys without
the assistance of counsel throughout this case clearly/substantially violating
due process and equal protection of the laws guaranteed by the 5th and 14th
Amendments to the U.S. Constitution.

16.

As I stated numerous times in all my filings that the Minnesota State judicial
and executive officers assumed to capriciously interpret the Governing CBA
including my Probationary Appointment Letter contractual language
capriciously misinterpreting the clear and explicit contractual language of
these contracts that clearly and explicitly gave me my employment status as
"just cause" with automatic continued employment property rights
clearly/substantially violating Article 1 of the U.S. Constitution which states
that States cannot pass any law impairing/ infringing the obligations of
contracts, to which, nowhere in the governing CBA nor in my Probationary
Appointment Letter is it stated that my employment was "at will". Judicial

Page 8 of 16

and executive officers have no authority to
interpret/misinterpret/machinate/subterfuge capriciously the clear and
explicit language of any contract doing so clearly/substantially violates due
process and equal protection of the laws guaranteed by the 5th and 14th
Amendments, and Article 1 State Contract Obligation clause of the U.S.
Constitution further proof of these judicial and executive officers acting
clearly/substantially outside their judicial and executive capacities or in
complete absence of jurisdiction and offices.
17.

All limiting laws and case laws submitted by defendants had the condition
added stating that unless the governing CBA contract states otherwise to
which the governing CBA contract did state otherwise in this case which was
capriciously ignored/ (machinated with the Minnesota Attorney General's
Office and AFSCME Unionl/subterfuee by the Minnesota State Courts et al
clearly/substantially violating Article 1 State Contract Obligation clause of
the U.S. Constitution.

18.

As stated numerous times in my filings that I and all employees no matter
what their employment status clearly and explicitly stated in Article 16
Section 1 of the Governing CBA Contract had "just cause" employment
status property rights otherwise the State of Minnesota would be allowed
hide illegal discrimination practices (which it did anvwavs in mv case against a

Page 9 of 16

disabled/handicapped worker) nowhere in the governing CBA was it
stated/implied that my employment status was "at will" see all my filings
and, Article 16 Sections 1,3 and 7, also Article 12 Section 10 D and
Ffsubmitted by defendants to which nowhere states clearly and
explicitlv/implies arbitrary "at will" termination), and Article 17 Section 2 of
the Governing CBA contract, including my Probationary Appointment Letter
(my Probationary Appointment Letter gave further "just cause" employment
contractual property rights to automatic continued employment) all this
substantiating evidence clearly and explicitly stating contractual "just cause"
property rights including automatic continued employment property right
submitted in my initial Minnesota State District Court Complaint on up to the
Minnesota Supreme Court defendants ruled against/deprived allowing (to
which Minnesota Courts et al required to assume by law that all my initially
alleged and substantiating facts to be true also required the Governing CBA
and my Probationary Letter contracts to be a part of mv pleadings)
clearly/substantially violating the 5th and 14th Amendments for due process
and equal protection of the laws, 7th Amendment fair jury trial property right.
also clearly/substantially violating Article 1 State Contract Obligation not to
infringe clause of the U.S. Constitution. My contractual property rights stated
in my Probationary Appointment Letter (not contrary to the Governing CBA

Page 10 of 16

contract or the law) that I had an automatic continued employment
property right and that the only reason for termination/ (non-certification)
was if I could not perform (output and accuracy) (If I was so unprepared over
the 7 months of my employment as claimed by defendants, then there
should have been plenty of incidents reported to which my Personnel File is
empty.)) which is the same reason for all employees to which non­
performance was conjured up at my termination hearing and never proven
since evidence was nonexistent (documentation of non-performance needed
to be submitted in mv Personnel File for each and every incident
transmitted in writing to my Union Representative over the 7 months of my
employment (Union Repetitive never brought up this issue further proving
Union misrepresenting of me)) as required by the Governing CBA for my
contractual governing CBA due process property rights. Minnesota
Department of Human Services (MNDHS) defendants only hastily
made/(coniured up) false unsubstantiated claim in a final non-certification
letter of being unprepared handed to me at the last day of the last moment of
my employment rushing/hustling me out the lobby door in order for the
MNDHS and AFSCME Union to machinate an ambush with absurd reason(s) to
terminate at my final termination/non-certification hearing to which all the
above clearly/substantially violates my legal and contractual due process

Page 11 of 16

property and equal protection of the laws property rights
(approved/lmachinated withl/lsubterfuee by) the Minnesota Courts et al).
Also when examining the above stated Governing CBA and Probationary
Letter Contractual Property Rights, obviously, I had "just cause" continued
employment property rights denied/ deprived of without due process in
clear/substantial violation of the 5th and 14th Amendments including
Article 1 State Contract Obligation clause of the U.S. Constitution.
19.

As stated numerous times in my all filings starting at the Minnesota State
District Court level that I had a cognizable claim under the Americans with
Disabilities Act (ADA) since I initiated an ADA claim with the MNDHS ADA
Coordinator Eric Folk as required by 29 CFR App. 1630.9(1998) [ The
threshold issue in claiming an employer failed to provide reasonable
accommodation for a disability is whether the employee ever requested an
accommodation. ] to which I submitted Judicially Noticed substantiating
facts that the Minnesota State Courts et al ruled against allowing in
determining their orders required to determine all my alleged/substantiating
facts as true according to law which is another clear/substantial violation of
the 5th, 7th (right to a fair jury trial) and 14th Amendments of the U.S.
Constitution for due process and equal protection of the laws.

Page 12 of 16

20.

Minnesota State Appellate Court ridiculously upheld a finding of insufficient
fact and a failure to exhaust administrative remedies of my ADA claim.
Minnesota Courts et al ruled on my alleged including substantiating facts.
Finding of the courts of insufficient alleged/substantiating facts/evidence,
required in deciding a motion to dismiss by law by the courts to be
determined as true for mv due process, is the duty of a jury to decide not a
Judge(s) as a jury trial was requested in my Initial Minnesota State District
Court Complaint clearly/substantially violating my due process and equal
protection of the law according to the 5th, 7th and 14th Amendments. Also
see defendants7 Motion to Dismiss to Minnesota State District Court cited U.S.
District Court of Minnesota Case Civil No. 10 cv 22353 (DWF/SER) which was
one of my old cases, prior to which. I won a finding by the U.S. Department of
Labor against AccessAbility Inc. (AAI), a contractor of the MNDHS, which
found that AAI violated the Federal Fair Labor and Standards Act (FLSA)
exploitation of the disabled and handicapped for cheap labor to which AAI
was required to pay all disabled and handicapped workers the money
extorted by AAI management (AAI claimed that they found that I was an
underperforming disabled/handicapped employee utilizing the FLSA's rules
to which U.S. Department of Labor investigator found that I was at the
Competitive Employment Level after examining all of AAl's employees7

Page 13 of 16

Performance Personnel Files.). I was also informed by the U.S. Department of
Labor investigator (Scott Laughtenschlaghter) of a finding of sufficient
evidence to make an ADA claim but at that time could not enforce the ADA
but as result of my case the U.S. Department of Labor would now on enforce
the ADA but could not do so retroactively.
21.

As stated numerous times in my filings that since I was not an "at will"
employee AFSCME Union (a State of Minnesota Contractor)
misrepresented/extortedO paid Union Dues.) me as an "at will" employee
(ignored by)/ (deprived of)/(machinated with)/(subterfuge by) the Minnesota
Courts et al to which I submitted judicially noticed documented
substantiating facts of AFSCME Union's misrepresentation (these documents
were required to be in mv Personnel File but deliberately excluded)
deliberately hidden* by defendants machination/subterfuge (including the
MNDHS et al) but I obtained these documents in a Minnesota Data Practices
Act request on MDHS Management involved not allowed into evidence
machination/subterfuge by/with the Minnesota Courts et al (courts again
denied/deprived initial requirement by law to determine all mv alleged and
substantiating facts to be determined as true) in clear/substantial violation
of due process and equal protection of the laws guaranteed by the 5th and
14th Amendments also clearly/substantially violating Article 1 State

Page 14 of 16

Contractual Obligation clause of the U.S. Constitution which states that the
States cannot pass any law impairing the obligations of contracts.
(*Defendants normal business practice is to hide documents denying any
knowledge of their actions/occurrences on their part at the opportune
moment which is what the defendants did in court and in their filings in
deliberate "perjury" deliberately approved/upheld by the courts.)
22.

Defendants and defendants' actors do not have immunity to suit in a
Minnesota State action brought by a Minnesotan and can be added at any
time since the 11th Amendment of U.S. Constitution does not apply in my
Minnesota State Case in question according to the 11th Amendment of the
U.S. Constitution's clear and explicit language since I am not a foreigner to
Minnesota and the Minnesota State Courts are not Foreign Courts in my
Minnesota State action to which all defendants in clear/substantial violation
of U.S. Constitution Article 1 Section 10 Clause 1 State Contractual
Obligation clause, 5th and 14th Amendments for due process and equal
protection of the laws.

23.

I was denied the use of the following case laws Bivens v. Six Unknown
Named Agents of the Federal Bureau of Narcotics, 403 U.S. 388 (1971), and
Haferv. Melo, 502 U.S. 25 (3rd Cir. 1991) all cited in my initial Minnesota
State District Court Complaint and further filings for the inclusion of all actors

Page 15 of 16

which can be added at any time during proceedings in a 42 USC 1983 action
not ailowed/denied by the Minnesota Courts et al in clear/substantial
violation of due process and equal protection of the laws according to the
5th and 14th Amendments of the U.S. Constitution. Also State actors and
State contractors et al can now be brought as defendants in an Ex parte
Young action in the U.S. Supreme Court as I am now requesting.
24.

Minnesota Courts et al denied/deprived me my right to a fair jury trial (as
requested in mv initial Minnesota State Court Complaint)
clearly/substantially violating the 7th Amendment U.S. Constitution.

25.

State of Minnesota officers are keeping my case unpublished in order to hide
their obvious machination/subterfuge clear/substantial violating due process
and equal protection of the laws when I Petition to higher courts for relief in
violation of the 5th and 14th Amendments of the U.S. Constitution.

26.

Judicial and executive officers of this case obviously have no allegiance to
the United States or the State of Minnesota as evidenced by their capricious
actions of this case.

Page 16 of 16

LIST OF PARTIES

i.

[ ] All parties appear in the caption of the case on the cover page.
All parties do not appear in the caption of the case on the cover page. A list of
all parties to the-proceeding in the court whose judgment is the subject of this
petition is as follows:

n

IA

CLjT e~

^A ro\^
'V

Oo-^f i or?

\Aj-a-iA-i&JL

Aot- hsfbdt i^

fbyiJ’n,

ZT U-Se^L ^.a/

c^sf-tfre o-dLgUist

jpritC&e-chh^s-

r £.

ei-ec/^r
<JU^\ieJL \>u

<&t a/ y
RELATED CASES

Xi U.f. Oistncf

ccx$e.

f/£cu/

h!o.20'^"
u-Ci-f,
U for**
^
**
(Xntl (J,f, Cau^.'b' 0,f
U: U-tZSl

■

/;

JZ

>!

TABLE OF CONTENTS

1

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE,CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPEN DIX A Decision

APPENDIX B
APPENDIX C P&OfS'i&Ps

APPENDIX D

APPENDIX E

APPENDIX F

al£ M,/ nrr &

^

5

1/ i£ Y

T

Co'+'-f tieh'

•vj u

3T.

*

£

CV/C/1 0 & V,5,
JP&n

/9'ffOJUoLc

V.

*c

o'f

j

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS B-LOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix .0...
the petition and is
j
^
[|J/4eported at L) f
u
Is &
; or,
[ ] has been designated for publication bir #s not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
i reported at Urf> Dt
fc^
Qicfv* > cJ'

i?_to

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

{jfFor cases from state cour:s: .
The opinion of the higl cst sUte court to review the merits appears at
Appendix
to the petition and is
[ ] reported at
; or,
[yj has been designated for rublication but is no;; yet reported; or,
[.j is unpublished.
The opinion of the Hf/t7

.y

appears at Appendix /4^/T to the petition and is
[ ] reported at _______________________
; or,
[ ] has been designate i for publication but is not yet reported; or,
is unpublished.
1.

court

to

JURISDICTION

For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
t I @
[ ] No petition for rehearing was timely filed in my case.
[

timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
_ifj
\____ ; and a copy of the
order denying rehearing appears at Appendix P
\

[ ] An extension of time to file the petition for .a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.___A
\

The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix r

4

[ ] A timely petition for rehearing Was thereafter denied on the following date:
----------------------------------, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under .28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
' s

/f I1 ec^dL G
of 'f'h't' US*

SyfJ
>*

.

•V ■ .•

f ,£ no 'f'CK.l*<k.uo
fo Htt*y*ese\fa^ C&\AS~ft
i
/

fkoj' k&s

tferrotsJeuffirift'S

bt (Ky (fj-aiH, Co^f- th 4'fe'
f\DA

f:

\^

STATEMENT OF THE CASE
Pro se
This case is ail about the Minnesota State Courts et al 's erroneous
misapplication/legislation of both State and Federal laws, Case Laws including the
11th Amendment U.S. Constitution to a Minnesota State Action brought by a
Minnesotan in clear/substantial violation of due process and equal protections of the
laws property rights violations of 5th, 7th and 14th Amendments U.S. Constitution, and
clear/substantial violations Article 1 Section 10 Clause 1 (no State shall pass law
impairing the obligations of contract) and Article 6 (Supremacy clause) of the U.S.
Constitution and all laws pursuant to including oath or affirmation requirement which
are the unalienable U.S. Constitutional property rights guarantee of We the People.
I read the entire governing Contractual Bargaining Agreement (CBA) contract of this
case and nowhere in the governing CBA is it stated/implied/...etc. that my
Probationary Employment was "at will", also, I had further contractual "just cause"
automatic continued employment property rights given in my Probationary
Appointment Letter which were not contrary to law or the Governing CBA contract. I
had substantial "just cause" continued employment contractual due process property
rights violated/deprived by all defendants. I have a right to a fair jury trial as initially
Page 1 of 11

requested and denied/deprived but I have further (Due Process)/ (U.S.
Constitutional)/ legal property rights that the Minnesota Courts et al denied/deprived
me. The Minnesota State Courts et al's judicial officers went clearly/substantially
beyond their official capacities in determining my complaint that set forth sufficient
claim for relief further deciding the alleged and substantiating facts of my case when
determining their motions to dismiss. They were required to determine initially by law
all alleged including substantiating facts to be true construing all reasonable
inferences in favor of the nonmoving party (me) when deciding/granting defendants'
motion to dismiss with prejudice to which the state courts et al denied/deprived me
violating my clear/substantial due process and equal protection of the laws property
rights (all evidence submitted to Minnesota Court et al on this matter) including the
7th Amendment U.S. Constitution property right to a fair jury trial (which I requested
in my initial State of Minnesota District Court Compliant). Documents central to the
process claim and referenced in the complaint, such as contracts, are deemed to be
included within the pleading were also denied/deprived me by the Minnesota Courts
et al violating my ciear/substantial due process and equal protection to the laws
property rights.
The State and Lower Federal Courts are allowing/legislating the State of Minnesota
Government to make contracts and then grant immunity for breach of contract with
Page 2 of 11

my case which will be used as unpublished case law precedence ambushing
Petitioners in future decisions which apparently can only be corrected by the U.S.
Supreme Court to which I am now requesting.
Petitioner Benjamin Mario Soto, was denied an injunction requesting my Minnesota
State Case be returned to one of the Minnesota State Courts overturning Minnesota
State Courts' et al orders be ordered by the Federal Courts to uphold my
clear/substantial legal and contractual property rights utilizing Ex parte Young, 209 U.S.
123 and 42USC1983 by U.S. District Court District of Minnesota Case No. 20-cv-1668
(DWF/ECW) and the United States Court of Appeals for the Eighth Circuit Case NO: 211251, since apparently the "Rooker-Feldman doctrine" is being applied in the lower
federal courts contrary to Ex parte Young case law to which apparently only the
United States Supreme Court having original jurisdiction can issue as I am now
requesting of the U.S. Supreme Court guaranteeing the Unalienable Rights of We the
People as promised, and I am further requesting a de novo review of my entire case
and all my filings from the State of Minnesota District Court on up to the United States
Court Supreme Court which is evidence to numerous clear/substantial property rights
violations as stated in ail my filings on this matter from the very beginning guaranteeing
individual unalienable property rights as promised guaranteed by the U.S.
Constitution.
PageS of 11

As evidenced by all that I have submitted and all orders issued by the judicial officers
in all Minnesota Courts of this case Minnesota Courts et al and judicial officers et al
are fraudulently/machinating/subterfuge depriving me of my clear/substantial legal
and contractual due process, and equal protection of the laws property rights
arbitrarily in clear/substantial violation of both Federal and State Constitutions and all
the laws pursuant to defendants claiming that the U.S. Constitution including
42USC1983 (do not applv)/(has no force of law) in any State of the Union acting
clearly/substantially beyond their judicial capacities fraudulently
legislating/extrapolating/subterfuge law deliberately fraudulently subterfuge
misinterpreting the clear and explicit language of the governing CBA including my
Probationary Letter Contracts are in clear/substantial violation of their oaths or
affirmations of office including clearly/substantially violating Articles 1 State
Contractual Obligation clause and 6 Supremacy clause of the U.S. Constitution as I
conveyed many times in all my filings in their courts acting clearly/substantially outside
their judicial capacities or in complete absence of jurisdiction has no 11th Amendment
Immunity with the State of Minnesota fraudulently/subterfuge claiming/legislating
immunity from suit and therefore not required to fulfill their contractual obligations in
their courts utilizing/subterfuge erroneously legislating the reasons/laws/ (case laws)
in this case all of this defendants' submitted Minnesota State clear/substantial
Page 4 ofll

fraud/subterfuge/extortion/machination needs to be corrected by an Ex parte Young,
209U.S. 123 injunction and 42USC1983 action which are the Supreme Laws of the Land
and anything to the contrary notwithstanding to which aii Federal and State Judicial
Executive Officers took a Soiemn/unbreakable Oath or affirmation to absolutely
uphold (according to)/(required by) Article 6 Supremacy clause of the U.S. Constitution
guaranteeing the absolute unalienable Rights of We the People for due process and
equal protection of the laws as promised.
Ali v. Cangemi, 419 F.3d 722, 723(8th Cir. 2005) does not apply to this case since Ali was
released from imprisonment requiring an issuing of a Writ of Habeas Corpus to be
absolutely unnecessary but in my Minnesota State Case I am still being deprived of my
rights (similarly to which Ali v. Cangemi also tried to address) as would occur to a
prisoner or during martial law of this case subterfuge by the State of Minnesota
Government/Courts which is exactly what occurred in Ex parte Young, 209U.S. 123
requiring an issuing of an injunction by the U.S. Supreme Courts giving prudence to my
ongoing clear/substantial controversies including Article 3 U.S. Constitutional
jurisdiction to the federal courts.
Petitioner Benjamin Mario Soto, (at the Competitive Employment Level for the
position hired to perform) a former employee having 7 months of employment with
the Minnesota Department of Human Services (MNDHS) and an AFSCME Union
Page 5 of 11

participant initiated my employment with the MNDHS in the Minnesota State Connect
700 Program created to allow disabled and handicapped workers access to State
employment normally barred to Minnesota State Employment and then after 4 months
of employment automatically transferred to Probationary Employment status after
successfully completing/proving Competitive Employment Requirements (same
requirements for mv MNDHS position for Non-Connect 700 Program participants) for
the Connect 700 Program sued MNDHS et al and AFSCME Union et al for being
arbitrarily terminated/ (non-certified) during probationary period and misrepresented
as an "at will" employee violating my clear/substantial employment contractual "just
cause" due process and continual property rights to which were deprived of without
due process by all defendants clearly/substantially violating the 5th and 14th
Amendments of the U.S. Constitution. MNDHS served me a document (immediately
escorting/hustling me out the main door to the building) that stated that I would not be
certified making false undocumented unsubstantiated ridiculous claim ambushed with
at the last moment at the end of the day of my unexpected termination for failure to be
prepared for work all in clear/substantial contractual "just cause" property rights
violations of Articles 16 Sections 1, 3 and 7, and Article 12 Sec. 10D and Sec. F
(submitted by defendants in which nowhere stating that mv employment status was "at
will") of the Governing CBA contract including my Probationary Appointment Letter
Page 6 of 11

that gave further non-conflicting contractual "just cause" property rights including an
automatic continued employment property right see the following along with the
Probationary Appointment Letter submitted in my initial Minnesota State District Court
Complaint:
The Governing Collective Bargaining Agreement (CBA1
Article 16 Section 1. Purpose. Disciplinary action may be imposed upon an employee
only for just cause.
ARTICLE 16 - DISCIPLINE AND DISCHARGE Section 3. following:
1. oral reprimand (not grievable); 2. written reprimand; 3. suspension; 4. suspension equivalent reduction of vacation balance* 5. demotion; and 6. Discharge • •••
Disciplinary Procedure. When any disciplinary action more severe than an oral
reprimand is intended, the Appointing Authority shall, before or at the time such
action is taken, notify the employee in writing of the specific reason(s) for such action,
and shall provide the Local Union with copies of any written notices of disciplinary
action....
Article 16 DISCIPLINE AND DISCHARGE Section 7. ...Personnel Files. Only the personnel
office record may be used as evidence in any disciplinary action or hearing. This does
not limit, restrict, or prohibit the Appointing Authority from submitting supportive
Page 7 of 11

documentation or testimony, either oral or written, in any disciplinary hearing, nor
does it so limit the Union....
Article 12 Sec. 10D D. Probationary Evaluation.
During the probationary period, the Appointing Authority shall conduct a minimum of
one (1) performance counseling review of the employee's work performance at the
approximate mid-point of the probationary period and furnish the employee with a
written copy of the evaluation. Whenever practicable, intermittent employees shall
have an initial performance review ninety (90) working days into their appointment.
Employees shall be informed of areas of needed improvement.
The governing CBA contract Article 16 above required each and every lack of
performance (output and accuracy) complaints to be documented, submitted to my
Personnel File, and reported to my ASFME Union representative during my 7 months
employment so I could defend against each and every accusation (not to be ambushed
at a final termination hearing with false unsubstantiated allegations in an effort for
the MNDHS and AFSME Union to machinate/lconiure up) reasons for termination) for
my contractual "just cause" due process property right. My Personnel File (submitted
in my initial Minnesota District Court Complaint) is empty of any/all complaints of
failure of output and accuracy or any other conjured up unsubstantiated reason(s)

Page 8 of 11

such as Lack of Preparedness to terminate (Since. I was at the Competitive
Empiovment Level for mv position with the MNDHS proving after successfully
completing the Connect 700 requirements.) over the 7 months of my employment
violating my clear/substantial CBA contractual "just cause" due process property rights
denying/deprivation of these contractual "just cause" property rights without due
process clearly/substantially violates the 5th and 14th Amendments of the U.S.
Constitution. The MNDHS clearly/substantially violated/deprived me of my contractual
governing CBA and Probationary Letter due process "just cause" continual employment
property rights falsely conjured up claiming Probationary Employment was "at will"
which is contrary to the above stated/cited contractual "just cause" property rights
terminating my employment machinated/fconiured up) with AFSCME Union obviously
misrepresenting me in the termination process. According to the clear and explicit
language of the Governing CBA contract Article 16 Sec. 1 all employees have "just
cause" employment status absolutely nowhere in the governing CBA contract is it
stated/implied that my employment was "at will" giving freedom to the MNDHS to
machinate with AFSCME Union to arbitrarily discriminate denial of employment (]
have read the entire Governing CBA). Also submitted in my initial Minnesota District
Court Complaint according to the clear and explicit language of my Probationary
Employment Appointment Letter giving further contractual "just cause" including
Page 9 of 11

automatic continued employment property rights the only reason for non-certification
was for lack of performance (output and accuracy) further establishing/substantiating
my contractual "just Cause" automatic continued employment property rights. Lack of
performance (output and accuracy) is the same "just cause" reason for terminating
any/all employee(s) including permanent employees.
I stated sufficient/substantial due process claim ignored/(deprived of) by the Minnesota
State Courts et al. In this Minnesota State Court Action the State does not enjoy 11th
Amendment U.S. Constitutional Immunity since I am a Minnesotan. According to
Article 1 of the U.S. Constitution no State shall pass law impairing/infringing the
obligations of contract. Minnesota State is a person in this Minnesota State case that
can be sued under 42USC1983 in a Minnesota action brought by a Minnesotan (me).
Also since I initiated an Americans with Disabilities Act (ADA) claim with the MNDHS's
ADA Coordinator Eric Folk along with 29 CFR App. 1630.9 (1998) accordingly the State
of Minnesota further does not enjoy 11th Amendment immunity. Union Exclusive
Remedy does not exist in this case since the clear and explicit language of the
Governing CBA contract does not state/give that right clearly/substantially violating
Article 1 State Contractual Obligation clause of the U.S. Constitution as stated above and
also considering that the Union misrepresented me as an "at will" employee, Justice
Leonardo Castro. Ramsey County District Court, granted MNDHS and AFSCME Union
Page 10 of 11

motions to dismiss my claim with prejudice upheld by the Minnesota Appellate and
Supreme Courts clearly/substantially depriving me of my legal and contractual property
rights guaranteed by the 5th and 14th Amendments including Article 1 State Contractual
Obligation clause of the U.S. Constitution claiming that the U.S. Constitution and all
laws pursuant to do not apply to any State in the Union including Minnesota in this
case in clear/substantial violation of Article 6 Supremacy clause of the U.S. Constitution
but contrarily mysteriously insist that the 11th Amendment of the U.S. Constitution
does have force of law in Minnesota all the above demonstrating a nqn-allegiance to
the United States and the State of Minnesota.

Page 11 of 11

Reasons for Granting the Petition

All Minnesota Courts et al are clearly/substantially depriving me of my legal and
contractual due process property rights and equal protection of the laws arbitrarily in
violation of both Federal and State Constitutions and all laws pursuant to claiming that
the U.S. Constitution including 42USC1983 and the Minnesota Constitution do not
apply/(has no force of law) in any State of the Union acting clearly/substantially beyond
their judicial capacities legislating/extrapolating law illegally determining/ruling alleged
and substantiating including judicially noticed facts to be false/insufficient/inadmissible
deliberately substantially capriciously misinterpreting the clear and explicit language of
contracts are in clear/substantial violation of their solemn oaths or affirmations of office
including clearly/substantially violating Articles 1 State Contractual Obligation clause
and 6 Supremacy clause of the U.S. Constitution as I conveyed many times in all my
filings in their courts acting clearly/substantially outside their judicial capacities or in
complete absence of jurisdiction the State of Minnesota claiming contrarily insists 11th
Amendment U.S. Constitutional immunity from suit and therefore not required to fulfill
their contractual obligations clearly/substantially violating Article 1 State Contract
Obligation clause of the U.S. Constitution utilizing/misapplying/legislating the
reasons/laws/ (case laws) of their machinated/subterfuge decisions of this case ail of

Page 1 of 3

this Minnesota State extortion/machination/subterfuge needs to be corrected by an Ex
parte Young, 209U.S. 123 and 42USC1983 action/injunction returning my case to one of
the Minnesota State Courts for further action overturning their obviously erroneous
Minnesota State Courts et al's orders that dismissed my case with prejudice are
glaringly subterfuge and ridiculous also the U.S. Supreme Court that possess Original
Jurisdiction needs to exercise its original jurisdictional power required to guarantee the
unalienable Rights of We the People including the Governing CBA and Probationary
Appointment Letter contracts as promised/obligated/required by judicial officers'
solemn oaths or affirmations as required by Article 6 of the U.S. Constitution for due
process and equal protection of the laws guaranteed by the 5th, 7th and 14th
Amendments of the U.S. Constitution.
The State of Minnesota judicial officers are keeping my case unpublished to hide their
subterfuge in violation of due process and equal protection of the laws for further
action in the higher courts by me the petitioner and to ambush future petitioners using
my case as case law precedence.
The State and Lower Federal Courts are allowing/legislating the State of Minnesota
Government to make contracts and then grant immunity for breach of contract with my
unpublished case which will be used as case law precedence in future ambush decisions
which apparently can only be corrected/purged by the U.S. Supreme Court to which I
am now requesting.
Page 2 of 3

Obviously as evidenced in my case the only way to obtain any Civil Rights Justice at all in
the United States is to have further George Floyd/ Rodney King type riots since these
judicial and executive officers of my case do not have any allegiance to the United
States, the State of Minnesota, and We the People as required and obviously not
guaranteed by the U.S. Constitution.
It is apparent that the State of Minnesota seceded the Union along with the South
winning the Civil War.

Page 3 of 3

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted^ irs '&vedL' factth
c-

V

&

MdlAa
ZSTJOusH 1A
jj)-------

Date:

on/os /zp
1

